 Mission Statement
 The Office of Inspector General conducts and supervises audits
 and investigations of Department of the Interior and insular area
 government programs and operations to:

 ! Promote the economy, efficiency, and effectiveness of
   programs and operations and

 ! Prevent and detect fraud, waste, and abuse in programs and
   operations.




How to Report Fraud, Waste, and Abuse
 Fraud, waste, and abuse in Government are the concern of
 everyone – Office of Inspector General staff, Departmental
 employees, and the general public. We actively solicit allegations
 of any inefficient and wasteful practices, fraud, and abuse related
 to Departmental or insular area programs and operations. You
 can report allegations to us by:

 Mail:         U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, DC 20240

 Phone:        24-Hour Toll Free                     800-424-5081

               Washington Metro Area                 202-208-5300
               Hearing Impaired                      202-208-2420
               Fax                                   202-208-6023

               Caribbean Regional Office             340-774-8300
               Pacific Field Office                  671-647-6060

 Internet:     www.oig.doi.gov/hotline_form.html
